2311 Douglas Street

E-Mail Address:

Omaha, Nebrask~ 68102-1214

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. - - - SHANIZ WEST,
Petitioner,
v.
DOUG WINFIELD, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
SCOTT G. BULLOCK
ROBERT J. MCNAMARA*
JOSHUAA. WINDHAM
INSTITUTE FOR JUSTICE
901 North Glebe Road, Suite 900
Arlington, Virginia 22203
(703) 682-9320
rmcnamara@ij.org
*Counsel of Record

Subscribed and sworn to before me this 16th day of January, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39265

SERVICE LIST

Bruce Castleton
Landon Brown
Naylor & Hales, PC
950 W. Bannock Street, Suite 610
Boise, Idaho 83702
208-383-9511
bruce@naylorhales.com
landon@naylorhales.com

Attorneys for Respondents

